H-

gO-626

NO.

IN THE
SUVSEflE «©«»£ ©J ES£ 1HOEO LEASES

BRYAN KEITH ROBERTS,
Petitioner,

v.
THE STATE OF TEXAS,
Respondent

FILED
OCT 0 8 2020
OFFICE OF THE CLERK
I qi iPRFMF. COURT U.S..

On Petition for a Writ of Certiorari
To the Court of Criminal Appeals of Texas

PETITION FOR A WRIT OF CERTIORARI

BRYAN KEITH ROBERTS
PETITIONER
TDCJ No. 2059120
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

QUESTIONS PRESENTED
1.

Is the presence of a large number of uniformed, under­

cover, and armed spectators identifiable as law enforcement on
the final day of the guilt-innocence phase of a criminal trial
inherently prejudicial?
2.

Can a defendant be found guilty of continuous sexual

abuse when the time period of alleged abuse contained within the
indictment and application paragraph of the jury charge begins
five months before the effective date of the continuous statute?

ROBERTS V. TEXAS

i

PARTIES TO THE PROCEEDINGS BELOW
This petition stems from a habeas corpus proceeding in which
Petitioner, Bryan Keith Roberts, was the Applicant before the
Court of Criminal Appeals of Texas. Mr. Roberts is a prisoner who
was convicted of continuous sexual abuse in the 188th Judicial
District Court of Gregg County

Texas, and is in the custody of

the State of Texas. The State of Texas was the Respondent before
the Court of Criminal Appeals of Texas.

RULE 29.6 STATEMENT
Bryan Keith Roberts, Petitioner, is not a corporate entity.

RELATED PROCEEDINGS IN STATE COURTS
Roberts was convicted and sentenced in the 188th Judicial
District Court of Gregg County, Texas, cause number 45,160-A,
styled The State of Texas v. Bryan Keith Roberts, on the 24th day

of January, 2016.
Roberts' conviction and sentence was affirmed by the Court of
Appeals for the Sixth Supreme Judicial District of Texas, cause
number 06-16-00026-CR, styled Bryan Keith Roberts v. The State of

Texas, on the 21st day of December, 2016.
Roberts' petition for discretionary review of the court of
appeals' memorandum opinion was refused by the Court of Criminal
Appeals of Texas, cause number PD-0062-17, styled Bryan Keith
Roberts v. The State of Texas, on the 22nd day of March, 2017.

ROBERTS V. TEXAS

ii

TABLE OF CONTENTS
Page
Questions Presented........................

i

Parties to the Proceedings Below

ii

Rule 29.6 Statement

ii

Related Proceedings in State Court

ii

Table of Authorities

iiv

Petition for a Writ of Certiorari

1

Opinions and Orders Below

1

Jurisdiction........................

1

Constitutional Provisions and Statute Involved

1

Statement of the Case

2

Reasons for Granting the Petition

3

Conclusion and Prayer for Relief.

13

Appendix A
Judgment of the Court of Criminal Appeals of .Texas

ROBERTS V. TEXAS

iii

TABLE OF AUTHORITIES
CASES
Care y v. Musladin,

549 U.S. 70 (2006)

Davis v. State,

223 S.W.3d 566 (Tex.App.-Amarillo 2006)

Page
5
6

Dretke v. Haley,

541 U.S. 386 (2004)......................................

9

Estelle v. Williams,

425 U.S. 501 (1976)

5

Holbrook v. Flynn,

475 U.S. 560 (1986)

4,5,6

Murray v. Carrier,

477 U.S. 478 (1986)..............................

9

Bender v. State,

316 S.W.3d 856 (Tex.Crim.App. 2010)

10

Sawyer v. Whitley,

505 U.S. 333 (1992)..............................

9

Sheppard v. Maxwell,

384 U.S. 333 (1966)..............................

6

Shootes v. State,

20 So;3d 434 (Fla. Dist. Ct. App. 2009)

5

Taylor v. Kentucky,

436 U.S. 478 (1978)............ .........................

4

CONSTITUTIONAL PROVISIONS
U.S. CONST, amend. V

1

U.S. CONST, amend. VI

1

U.S. CONST, amend. XIV

2

STATUTES
28 U.S.C. § 1254(1)..........

1

TEX. GOV'T CODE § 508,145

12,13

TEX. PEN. CODE § 12.32(a)

12

ROBERTS V. TEXAS

iv

TEX. PEN. CODE § 21.02
TEX. PEN. CODE § 22.021

2,10,13
12

OTHER PROVISIONS
Acts 2007, 80th Leg., Ch. 593 § 1.17, eff. Sept. 1, 2007

ROBERTS V. TEXAS

2,10

V

PETITION FOR A WRIT OF CERTIORARI
Petitioner Bryan Keith Roberts respectfully petitions this
Court for a writ of certiorari to review the judgment of the
Court of Criminal Appeals of Texas.

OPINIONS AND ORDERS BELOW
On July 29, 2020, the Court of Criminal Appeals of Texas is­
sued a judgment denying Mr. Roberts' application for a writ of
habeas corpus without written order. The July 29, 2020, denial is
unpublished and attached as Appendix A.

JURISDICTION
The Court of Criminal Appeals of Texas had original jurisdic­
tion over Mr. Roberts' application for a writ of habeas corpus
under Article 11.07 of the Texas Code of Criminal Procedure. The
judgment of the Court of Criminal Appeals of Texas was entered on
July 29, 2020. This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).

CONSTITUTIONAL PROVISIONS & STATUTE INVOLVED
The Fifth Amendment to the United States Constitution pro­
vides that "No person shall...be deprived of life, liberty, or
property, without due process of law..." U.S. CONST, amend. V.
The Sixth Amendment to the United States Constitution pro­
vides that "In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury..."
U.S. CONST, amend. VI.
The Fourteenth Amendment to the United States Constitution
provides that "No state shall make or enforce any law which shall

ROBERTS V. TEXAS

1

...deny to any person within its jurisdiction the equal protec­
tion.of the laws." U.S. CONST, amend. XIV.
Texas Penal Code § 21.02, Continuous Sexual Abuse of Young
Child. TEX. PEN. CODE § 21.02.

STATEMENT OF THE CASE
Mr. Roberts was indicted on October 29, 2015, for the offense
of Continuous Sexual Abuse of Young Child in violation of Texas
Penal Code §121.02. The indictment alleged that Roberts "did then
and there during a period that was 30 or more days in duration,
to-wit: from on or about the 1st day of April, 2009 through the
1st day of June, 2009, when the defendant was 17 years of age or
older, commit two or more acts of sexual abuse against a child
younger than 14 years of age... II
On January 19, 2016, the State's attorney pro tem filed a Mo­
tion to Amend Indictment. The requested amendment expanded the
time period to "the 1st day of April, 2007 through on or about
the 9th day of June, 2012," and added two additional alleged acts
of sexual abuse. That same day, the trial court granted the
State's motion as'requested. The amended indictment expanded the
time period of alleged abuse to five months preceding Texas Penal
Code § 21.02's effective date. TEX. PEN. CODE § 21.02; Acts 2007,
80th Leg., ch. 593 § 1.17, eff. Sept. 1, 2007. This new provision
applied only to conduct occurring on or after the effective date.
At Roberts' jury trial, the application paragraph of the Jury
Instructions on Verdict for guilt-innocence quoted the time peri­
od reflected in the amended indictment as an element of the offense. The jury ultimately found Roberts guilty as charged.
ROBERTS V. TEXAS

2

The alleged victim in this case was the son of an investiga­
tor employeed by the county in which Roberts was tried and con­
victed. Said investigator testified during the trial while wear­
ing his Class A uniform, although investigators were encouraged
to wear suits.
Seven law enforcement officers testified during Roberts' trial.
The Rule was invoked at the beginning of trial and witnesses were
excluded from the courtroom during the trial;.ioThe guilt-innocence
phase of the trial was six days in duration. On the final day of
the guilt-innocence phase, there was a large presence of uniform­
ed, undercover, and armed spectators identifiable as law enforce­
ment. Roberts' trial attorney commented twice on the record con­
cerning the police officers presence. The officer turnout was
significantly higher on the final day of the guilt-innocence
phase. The State admitted to 10-15 uniformed officers and avoided
putting a number on the other identifiable law enforcement. Sev­
eral defense witnesses swore under oath that the total number of
identifiable law enforcement was 60 or more. The large presence
of these officers were only present for the jury charge, closing
arguments, jury deliberation, and guilty verdict. The majority of
the law enforcement spectators did not return after the verdict
and lunch recess.

REASONS FOR GRANTING THE PETITION
The Court of Criminal Appeals of Texas has decided an import­
ant question of federal law that has not been, but should be set­
tled by this Court, and has decidddcan important federal question
in a way that conflcits with relevant decisions of this Court. TThe ?
ROBERTS V. TEXAS

3

questions presented are important, recur frequently, and are per­
fectly presented on this record. This Court should grant certior
rari to stop Texas's curtailment of defendants' United States
Constitutional rights.
I.

This Court Should Grant Certiorari to Determine Whether
the Presence of a Large Number of Uniformed, Undercover,
and ArmedASpectators Identifiable as Law Enforcement on
the Final Day of the Guilt-Innocence Phase of a Criminal
Trial is Inherently Prejudicial.
The presence of a large number of uniformed, undercover, and

armed spectators identifiable as law enforcement on the final day
of the guilt-innocence phase of a trial is inherently prejudicial,
resulting in a lack of due process. This violated Roberts' right
to a fair and impartial trial, and to due process of law, as
guaranteed by Amendments V, VI, and XIV to the United States Con­
stitution. See Holbrook v. Flynn, 475 U.S. 560 (1986).
Central to the right to a fair trial, guaranteed by the Sixth
and Fourteenth Amendments is the principle that "one accused of
a crime is entitled to have his guilt or innocence determined
solely on the basis of the evidence introduced at trial, and not
on grounds of official suspicion, indictment, continued custody,
or other circumstances not adduced as proof at trial. Id. at 567
(citing Taylor v. Kentucky, 436 U.S. 478, 485 (1978)). To guaran­
tee a defendant's due process rights under ordinary circumstances,
our legal system has instead placed primary reliance on the ad­
versary system and the presumption of innocence. Id. When defense
counsel vigorously represents his client's interests and the
trial judge assiduously works to impress jurors with the need to
presume the defendant's innocence, we have trusted that a fair

ROBERTS V. TEXAS

4

result can be obtained. Id. at 567-68.
To determine inherent prejudice, we look to whether "an un'

/

acceptable risk is present of impermissible factors coming into
play." Id. at 570 (citing Estelle v. Williams, 425 U.S. 501, 505

1976)).
Roberts asserts that his Sixth Amendment right to a fair trial
was denied by the presence of the large number of officers in the
courtroom on the last day of the guilt-innocence phase of the
trial. The presence of the officers prejudiced Roberts' opportuni­
ty to receive a fair trial. The appearnce of the considerable num­
ber of the City of White Oak police officers and Gregg County
Sgeriff's deputies in various modes of official attire presented
an unacceptable risk of impermissible factors coming into play.
Roberts contends that his case is very similar to that of
Shootes v. State, 20 So.3d 434 (Fla Dist. Ct. App. 2009), with
the exception that Roberts'1 circumstances are more aggravating.
The presence of courtroom observers wearing uniforms, insig­
nia, buttons, or other indicia of support for the accused, the
prosecution, or the victim of the crime does not automatically
constitute denial of the accused's right to a fair trial. Holbrook
v. Flynn, 475 U.S. 560 (1986) (four uniformed officers seated im­
mediately behind defendants no.t prejudicial) ; Carey v. Musladin,
549 U.S. 70 (2006) (fair trial not denied by wearing buttons with
photo of victim by some members of victim's family). However,
there are situations where the atmosphere in the courtroom might
infringe on the defendant's right to a fair trial. When this is­
sue is raised, a case-by-case approach is required to allow courts

Roberts v> Texas

5

to consider the "totality of the circumstances." Sheppard v. Maxwell , 384 U.S. 333, 352 (1966); Holbrook v. Flynn, 475 U.S. at 569.

The number of spectators identifiable as law enforcement per­
sonnel was substantial in this case and distinguishes this case
from those cases involving the appearance of a relatively few of­
ficers in the gallery. Compare Holbrook v. Flynn, 475 U.S. 560
(1986) (supplemental security of four officers in trial of six de­
fendants not inherently prejudicial); Davis v. State, 223 S.W.3d
466 (Tex.App.-Amarillo 2006) (no inherent prejudice when up to
eight uniformed officers sat in gallery over course of trial,
vastly outnumbered by civilian speactators, no indication that of­
ficers "gravatated towards" jury or that prosecution "had a role
in the presence of the officers during trial").
The alleged victim's father, Roy Nixon, had worked for the
City of Gladewater Police Department with the White Oak police'
chief and was an investigator for Gregg County Sheriff's Depart­
ment at the time of trial. (RR5:27-28; RR9:13). Investigator Nixon
testified in Roberts

trial as an outcry witness. (RR5:27; RR9:72-

115). He testified in his Class A uniform. (RR9:99). He testified
that he was "required" to wear his uniform during court. (RR9:99).
Investigator Nixon's co-worker, Detective David Craig Har­
rington, testified at Roberts' trial also. (RR11:41-106). Har­
rington was not wearing his Class A uniform and testified that it
was not policy to wear the uniform, that investigators are en­
couraged to wear suits. (RR11:94).
After Detective Harrington's testimony, Investigator Nixon
returned to the stand where he then admitted that the sheriff's

ROBERTS V. TEXAS

6

uniform and suit is optional, either or. (RR11:124). He chose to
wear his Class A uniform for the entire trial, even on days he
did not testify.
The special prosecutor for Roberts' trial, attorney pro tem
Richard A. Hurlburt was a former Gregg County Deputy, which he
was sure to inform the jury of. (RR10:224).
The guilt-innocence phase of Roberts' trial was six days in
duration. (RR9; RR10; RRll; RR12; RR13; RR14). On the fifth day,
the trial court recessed before the lunch break. (RR13:152). The
trial court's reasoning for ending the day early was for a charge
conference. (RR13:152). The jury charge conference, including a
ten minute recess, lasted less than 30 minutes. The remainder of
the guilt-innocence phase could have been completed on that day.
(Pet. State Hab. Exhs: J, K, L, M).
On the final day of the guilt-innocence phase, the prosecu­
tion side of the gallery contained a large number of identifiable
law enforcement officers from the City of White Oak and Gregg
County. (RR14:40, 65, 80; RR16:17; Pet. State Hab. Exhs: J, K, L,
M). The State admitted in Roberts' habeas proceeding that there
were 10-15 uniformed officers, they made up about one-half of the
spectators, and some sat on the front row. Several defense spec­
tators stated under oath that there were 60 or more identifiable
law enforcement officers, they made up 75%-80% of the trial spec­
tators, and that the officers sat together and closest to the
jury. (Pet. State Hab. Exhs: J, K, L, M!).
Roberts was found guilty at 12:20 p.m. (CR1:111-112). Many of
the officers did not return after the lunch recess or for any
ROBERTS V. TEXAS

7

other part of the punishment phase. (Pet. State Hab. Exhs: J, K,
L, M).
In hindsight, it is obvious that the only reason for the early
recess on the fifth day of the guilt-innocence phase was to ac­
commodate the large officers'presence for the guilt-innocence
jury charge, closing arguments, deliberations, and guilty verdict,
fhe excessive number of officers were not there as added security
or to give testimony. The prosecution ^clearly had a role in the
presence of the officers. The officers presence was designed to
show official interest and to communicate a message to the jury.
The jury could not help but receive the message that the officers
wanted a conviction.
The conspicuous crowd of officers present, in close proximity
to the jury, created an unacceptable risk that the jury's deter­
mination of the credibility of witnesses and findings of fact
would be tainted by impermissible factors not introduced as evi­
dence or subject to cross-examination. The totality of the cir­
cumstances in the courtroom on the final day of the guilt-innocence
phase influenced the jury's decision and thus constituted inherent
prejudice to Roberts' right to a fair trial, resulting in funda­
mental error. Roberts was not only denied a fair trial, he was
denied due process of law.
As a result, Mr. Roberts respectfully suggests that some
guidance from the Supreme Court of the United States is warranted.

ROBERTS V. TEXAS

8

II. This Court Should Grant Certiorari to Determine Whether
a Defendant can be Found Guilty of Continuous Sexual
Abuse When the Time Period of Alleged Abuse Contained
Within the Indictment and Application Paragraph of the
Jury Charge Begins Five Months Before the Effective
Date of the Continuous Statute.
Roberts is not guilty of continuous sexual abuse based on the
retroactive application of the continuous statute. This violates
Roberts' right to due process of law, as guaranteed by Amendments
V and XIV to the United States Constitution.
Roberts asserts that he is actually innocent, not guilty, of
the offense of Continuous Sexual Abuse of a Child, Texas Penal
Code § 21.02, for which he was convicted.
"Actual Innocence" originally meant that the accused person
did not, in fact, commit the charged offense. See e.g. Sawyer v.
Whitley, 505 U.S. 333, 336 (1992); quoted in Dretke v. Haley, 541
U.S. 386

393 (2004); Murray v. Carrier, 477 U.S. 478 (1986) (ac­

tually innocent of the substantive offense). That meaning began
to change when the United States Supreme Court expanded the term
from "not guilty of" the charged offense to also mean "ineligible
for the punishment assessed." See e.g. Dretke v. Haley, 541 U.S.
at 393-94 ("allegations of actual innocence, whether of the sen­
tence or of the crime charged").
In the case at bar, Roberts was indicted for the offense of
Continuous Sexual Abuse of a Child. (CR1:7). The indictment al­
leged that Roberts "did then and there during a period that was
30 or more days in duration, to-wit: from on or about the 1st day
of April, 2009 through the 1st day of June, 2009, when the defend­
ant was 17 years of age or older, commit two or more acts of sex­
ual abuse against a child younger than 14 years of age..." (CR1:7).
ROBERTS V. TEXAS

9

The State's attorney pro tern filed a pretrial Motion to Amend
Indictment. (CRl:45-46). The requested amendment expanded the
time period of alleged abuse to "the 1st day of April, 2007
through on or about the 9th day of June, 2012," and added two ad­
ditional alleged acts of sexual abuse. (CRl:45-46). The trial
court granted the motion as requested. (RR5:26).
The bill enacting Section 21.02 of the Texas Penal Code pro­
vided this new provision applied to conduct occurring on or after
September 1, 2007. See TEX. PEN. CODE § 21.02; Acts 2007

80th

Leg., Ch. 593, § 1.17, eff. Sept. 1, 2007; Render v. State, 316
S.W.3d 846 n. 2 £Tex.Crim.App. 2010).
The alleged victim, T.N. was born on July 10, 1998. (RR5:34;
RR10;:67)) At the time of T.N.'s testimony at trial, which was Feb­
ruary 17, 2016, he was 17 years of age and a senior in high
school. (RR10:137). T.N. moved to 308 Cates and went to White Oak
schools beginning in 3rd grade. (RR10:70-71, 138, 167).
Rachel Nixon Dolle, T.N.'s mother, testified that she was
certain that T.N.'s first school year in White Oak school district
was 3rd grade. (RR10:71).
Based on T.N.'s testimony at trial, that he was then 17 years
of age and a senior in high school, Roberts presents as proof of
the retroactive application of the continuous statute the follow­
ing timeline:
T.N.'s Age
17
16
15
14
13
12

ROBERTS V. TEXAS

Grade
12

m

10
9
8
7

Years
2015-2016
220.14-2015
2013-2014
2012-2013
2011-2012
2010-2011
10

11
10
9
8

6
5
4
3

2009-2010
2008-2009
2007-2008
2006-2007

The evidence adduced at trial clearly reflects that T.N. and
his family moved to 308 Cates in November, 2006.
T.N. had a hard time recalling specifics of the alleged con­
duct, including an exact year and his age when it first happened.
(RR10:178, 190-191). T.N. believed it was in the summer, around
the 4th grade. (RR10:143, 179). As shown above, T.N. began the 4th
grade in September, 2007. The summer before TUN'.'s 4th grade year
is clearly before the September 1, 2007, effective date of Texas
Penal Code § 21.02.
The record demonstrates that the jury found Roberts guilty of
Continuous Sexual Abuse of asChild based on alleged conduct that
was engaged in prior to the effective date of the continuous stat­
ute. Therefore, the statute was retroactively applied to Roberts.
In further support of his claim, Roberts directs the Court's
attention to the Jury Instructions on Verdict for guilt-innocence.
(CRl:62-70). In the application paragraph, the jury was instructed
that "You must determine whether the state has proved Continuous
Sexual Abuse of a Child beyond a reasonable doubt, in Gregg
County, Texas, the Defendant: 1. Intentionally or knowingly, 2.
During a period that is 30 or more days in duration, to-wit: from
on or about April 1, 2007 through June 9, 2012, 3. The Defendant
committed two or more acts of sexual abuse against John Doe..."
(CRl:67).
In further support of the retroactively applied statute claim,
the jury was also instructed
ROBERTS V. TEXAS

pursuant to Section 21.02(d), "The
11

jury is not required to agree unanimously on which specific acts-of sexual abuse were committed by the defendant or the exact date
when those acts were committed." (CR1:67). In sum, the jury in­
structions did not limit the time period the jury was to consider
in order to avoid the retroactive application of Section 21.02 to
Roberts.
The jury found Roberts guilty of Continuous Sexual Abuse of a
Child

as charged in the amended indictment, and assessed punish­

ment at 55 years confinement in the Texas Department of Criminal
Justice. (CR1:71, 76). "An inmate... serving a sentence for an of­
fense under Section 21.02, Penal Code...is not eligible for re­
lease on parole." TEX. GOV'T CODE § 508.145(a).
The Jury Instructions on Verdict also provided that "If you
have a reasonable doubt as [to] the defendant's guilt of Contin­
uous Sexual Abuse of a Child, you will acquit the defendant of
that charge and next consider whether he is guilty of Aggravated
Sexual Assault of a Child." (CR1:68).
"An offense under this section [220021, Penal Code (Aggravated
Sexual Assault)] is a felony of the first degree." TEX. PEN. CODE
§ 22.021(e). "An individual adjudged guilty of a first degree
shall be punished by imprisonment in the Texas Department of Crim­
inal Justice for life or for any term of not more than 9T years
or less than 5 years." TEX. PEN. CODE § 12.32(a). "An inmate de­
scribed by Subdivision (1) [an inmate serving a sentence for an
offense under Section 22.021] is not eligible for release on pa­
role until the inmate's actual calendar time served, without con­
sideration of good conduct time, equals one-half of the sentence
ROBERTS V. TEXAS

12

or 30 calendar years, whichever is less..." TEX. GOV'T CODE §
508.145(d)(2).,
Under the offense Roberts was convicted,of, the punishment
range is "imprisonment in the Texas Department of Criminal Justice
for life, or for any term of not more than 99 years or less than
25 years." TEX. PEN. CODE § 21.02(h). As mentioned above, there
is no eligibility for early release on parole.
In the case challenged here, it involves — too severe punish­
ment—a felony with a minimum of 25 years confinement and no pos­
sibility of parole rather than a felony with a minimum of 5 years
confinement with the possibility of parole.
In short, Roberts could not have been found guilty of Contin­
uous Sexual Abuse of a Child because the time period of alleged
abuse contained within the amended indictment and the application
paragraph of the jury charge began five months before the effecf;i
tive date of the continuous statute. Therefore, Roberts is "guilty
only of" the lesser-includud offense of Aggravated Sexual Assault
and "ineligible for" the sentence assessed.
As a result, Mr. Roberts respectfully requests some guidance
from the Supreme Court of the United States.

CONCLUSION AND PRAYER FOR RELIEF
For the foregoing reasons, Bryan Keith Roberts prays that
this Court grant a writ of certiorari to resolve the Questions
Presented.
Dated: October 5, 2020

Respectfully submitted,
BRTAN KEITH ROBERTS
PETITIONER

ROBERTS V. TEXAS

13

TDCJ No. 2059120
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

ROBERTS V. TEXAS

14

